No. 20-255
MAHANOY AREA SCHOOL DISTRICT,
Petitioner,
v.
B.L., A MINOR BY AND THROUGH HER FATHER,
LAWRENCE LEVY AND HER MOTHER, BETTY LOU LEVY,
Respondents.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
I have served by first-class mail, postage prepaid, the
Brief of Amici Curiae National School Boards
Association, The American Federation of Teachers,
The National Association of Elementary School
Principals, The National Association of Secondary
School Principals, and AASA, the School
Superintendents Association in Support of Petitioner
on counsel for each party to the above proceeding as
follows:
Lisa Schiavo Blatt
Williams & Connolly
LLP
725 12th Street, NW
Washington, DC 20005
lblatt@wc.com
Counsel for Petitioner

Arleigh P. Helfer III
Schnader Harrison Segal
& Lewis LLP
1600 Market Street,
Suite 3600
Philadelphia, PA 19103
ahelfer@schnader.com
Counsel for Respondents
/s/ Kelsi Brown Corkran
Counsel for Amici Curiae

